APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(April 3, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Adopting Report and
Recommendation of United States
Magistrate Judge in the United States
District Court for the Eastern District
of Texas
(March 13, 2018) . . . . . . . . . . . . . App. 18
Appendix C Report and Recommendation of
United States Magistrate Judge in the
United States District Court for the
Eastern District of Texas
(January 8, 2018) . . . . . . . . . . . . App. 26
Appendix D Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Fifth Circuit
(May 7, 2019) . . . . . . . . . . . . . . . App. 54

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-40415
[Filed April 3, 2019]
________________________________________________
JERI LYNN RICH, as representative for
)
Gavrila Covaci Dupuis-Mays, an
)
incapacitated person,
)
Plaintiff!Appellee,
)
)
versus
)
)
MICHAEL PALKO; KEITH DUANE HUDGENS, )
Defendants!Appellants.
)
_______________________________________________ )
Appeal from the United States District Court
for the Eastern District of Texas
Before KING, SMITH, and WILLETT, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Jeri Rich sued Michael Palko and Keith Hudgens of
the McKinney Police Department (“MPD”) on behalf of
her adopted son, Gavrila Dupuis-Mays, who has been
declared an incapacitated person by the State of Texas.
Rich sought damages under 42 U.S.C. § 1983, alleging
that the officers had violated Dupuis-Mays’s Fourth
and Fourteenth Amendment rights. The district court

App. 2
denied the officers’ motion for summary judgment
based on qualified immunity (“QI”). We reverse and
render a judgment of dismissal with prejudice.
I.
Dupuis-Mays sustained a brain injury as an infant
and has cerebral palsy, mental retardation, bi-polar
disorder, depression, ADHD, and epilepsy. On July 2,
2015, he was admitted for inpatient psychiatric
evaluation for depressed ideation. He was released on
July 10, 2015, and returned to a group home in
McKinney, Texas, where he had been living.
Between July 10 and 11, MPD was called to the
group home four times because Dupuis-Mays kept
trying to run away. The final of those visits stemmed
from a 911 call made by Dupuis-Mays’s caseworker,
Rhonda Holley, on Saturday July 11 at 2:01 a.m.1
Holley asked police to transport Dupuis-Mays to Green
Oaks Hospital, explaining that Dupuis-Mays needed
inpatient care because he was “in a psychotic phase,
where he is verbally and physically aggressive towards
staff.” Holley confirmed that Dupuis-Mays had not hit
anyone that night but was “covered in feces and
refusing to bathe.” Holley told the 911 operator that
she had initially called Green Oaks, and they
recommended that she call 911.

1

Most of the facts come from an audio recording of the 911 call
made by Holley; a video showing a waiting room at Green Oaks;
videos showing the Green Oaks triage room from two angles; and
Hudgens’s audio feed while at the group home and Green Oaks.

App. 3
Palko and Hudgens responded. When they arrived
at the group home, they briefly conversed with one of
Dupuis-Mays’s caretakers, who reported that DupuisMays was becoming increasingly psychotic and that
Green Oaks directed the group home staff to bring him
in for care. She further explained that neither she nor
other staff members felt safe transporting DupuisMays to Green Oaks: He was “threatening” Holley, and
“he just threatened our children,” who were present
that night.
The officers approached Dupuis-Mays, who was
covered in feces, and dialogued with him at length. At
the officers’ urging, Dupuis-Mays eventually agreed to
shower and change clothes. Holley told the officers
what had precipitated her 911 call. Dupuis-Mays had
defecated on himself and had removed his clothes and
put them on the porch. He had scattered tables in the
home’s backyard and refused to follow staff
instructions. Staff members also reported that DupuisMays’s aggression had been increasing and that his
psychiatrist told the staff that their only option until
Monday was to transport Dupuis-Mays back to Green
Oaks for an assessment. Dupuis-Mays’s doctors had
called Dupuis-Mays “unstable.”
Once Dupuis-Mays had showered and dressed, he
voluntarily approached the officers and smoked a
cigarette while talking with them. After about ten
minutes, the officers told Dupuis-Mays that he would
be going for a ride in the police car; they handcuffed
and led him to the police car. The three talked casually
during the ride to Green Oaks and arrived without
incident.

App. 4
The officers led Dupuis-Mays, still handcuffed, into
the Green Oaks waiting room and seated him in a chair
near the door to the triage room. Dupuis-Mays
eventually stood up from the chair and began talking
to the officers, saying, among other things, “I’ll be glad
you go to hell [sic],” and “I hate police officers.” At least
two other patients were in the waiting room. After
Dupuis-Mays refused to sit down, the officers retuned
him to his chair. A few seconds later, Dupuis-Mays
spat toward Palko’s face. The officers turned away from
the spitting before approaching Dupuis-Mays, moving
his head between his legs, and holding him in that
position for about five minutes. The video and audio
indicate that Dupuis-Mays continued spitting at and
berating the officers, even with his head between his
legs.
Dupuis-Mays was called back to the triage room,
where quarters were tight: He was seated in a chair in
one corner of the room with a small file cabinet directly
to his right and the triage nurse’s desk to the right of
the cabinet. A second file cabinet was in the corner
opposite Dupuis-Mays, about three to four feet in front
of him. The officers stood by a door catty-corner from
Dupuis-Mays. Because of the file cabinets’ positioning,
the corridor from the officers to Dupuis-Mays was
narrow.
After a couple of minutes, Dupuis-Mays grew
agitated and began saying, “I hate police officers! I hate
‘em!” The triage nurse urged him to “stay calm,” but
Dupuis-Mays retorted, “Hell no!” The officers tried to
pacify him, encouraging him that they were being nice.
Dupuis-Mays continued, however, in escalating

App. 5
volume, “I hate police officers! F*** them police
officers! I hope cops die!” “Do you really mean what you
say?” Palko queried, to which Dupuis-Mays responded,
“I hope you die!” “That’s really mean of you to say,”
Palko answered calmly.
The nurse left the room, leaving the officers with
Dupuis-Mays. About twenty seconds later, DupuisMays spat toward Detective Palko, who stepped back,
and told him, “Don’t spit on me, Bud.” Dupuis-Mays
then leaned forward, stared at Palko, and spat directly
at his face.
Palko stepped across the room toward Dupuis-Mays
through the opening left by the two file cabinets. Palko
placed both of his hands on Dupuis-Mays’s head and
began moving him down and diagonally from his chair
to the middle of the room. Palko stood with his body in
front of the corner filing cabinet, his left foot in front of
and parallel with the cabinet’s side. Palko’s eyes were
consistently directed downward—not toward the file
cabinet. Hudgens also approached and placed his right
hand on Dupuis-Mays’s shoulder blade and his left
hand on Dupuis-Mays’s handcuffed hands. Midway to
the ground, Dupuis-Mays’s torso began to turn toward
the corner cabinet, his foot apparently caught behind
the file cabinet directly to the right of his chair. Palko
was still in front of the corner cabinet. As Dupuis-Mays
twisted, Palko’s left elbow bumped the corner cabinet,
his hand fell off Dupuis-May’s head, and DupuisMays’s head fell into the corner cabinet. Notably, Palko
did not have a hand on Dupuis-Mays’s head as DupuisMays fell into the cabinet.

App. 6
The officers promptly helped Dupuis-Mays up and
carefully moved him to a seated position on the floor.
They did not apply additional force. Dupuis-Mays’s
head was bleeding significantly, and he sustained a
five-inch gash.
Hudgens filed a post-incident report with MPD.
That report did not comport with the video from the
triage room, so MPD began an internal affairs
investigation, during which MPD Sergeant Agan spoke
to Palko, who accurately recalled and recounted the
events. Hudgens later watched the video, listened to
the audio, and corrected his report.
Rich sued Palko and Hudgens under § 1983,
claiming that they had violated Dupuis-Mays’s Fourth,
Eighth, and Fourteenth Amendment rights.2 The
officers moved to dismiss for failure to state a claim,
and the district court granted the motion respecting
Rich’s Eighth Amendment claim. But the court
deferred the remaining claims for disposition after
discovery on whether the officers were entitled to QI.
Following discovery, the officers moved for summary
judgment on grounds of QI. The district court, adopting
the report and recommendation of the magistrate
judge, denied QI, and the officers appealed.

2

Rich also sued the City of McKinney, alleging that it “employs a
policy, practice, or custom that permits police officers to use
excessive force and file false police reports.” The city is not a party
to this appeal.

App. 7
II.
We have jurisdiction to consider this interlocutory
appeal because the “general rule” that “[a]n order
denying a motion for summary judgment is generally
not a final decision within the meaning of § 1291 and is
thus generally not immediately appealable . . . does not
apply when the summary judgment motion is based on
a claim of [QI].” Plumhoff v. Rickard, 572 U.S. 765, 771
(2014) (citations omitted). But “we have jurisdiction
only to decide whether the district court erred in
concluding as a matter of law that officials are not
entitled to [QI] on a given set of facts.” Cantrell v. City
of Murphy, 666 F.3d 911, 921 (5th Cir. 2012) (internal
quotation marks and citation omitted).
We review de novo the legal issue whether the
district court erred in denying a motion for summary
judgment based on QI. Escobar v. Montee, 895 F.3d
387, 393 (5th Cir. 2018). Although we “review the
materiality of any factual disputes,” we do not review
“their genuineness.” Curran v. Aleshire, 800 F.3d 656,
660 (5th Cir. 2015) (quoting Wagner v. Bay City, 227
F.3d 316, 320 (5th Cir. 2000)). If there are factual
disputes, “we view the facts in the light most favorable
to the nonmoving party.” Plumhoff, 572 U.S. at 768.3

3

We will not, however, accept a plaintiff’s version of the facts “for
purposes of [QI] when it is ‘blatantly contradicted’ and ‘utterly
discredited’ by video recordings.’” Curran, 800 F.3d at 664 (quoting
Scott v. Harris, 550 U.S. 372, 380–81 (2007)).

App. 8
III.
A plaintiff makes out a § 1983 claim if he “show[s]
a violation of the Constitution or of federal law, and
then show[s] that the violation was committed by
someone acting under color of state law.” Brown v.
Miller, 519 F.3d 231, 236 (5th Cir. 2008) (internal
quotation marks and citation omitted). But government
officials performing discretionary duties can assert QI.
See, e.g., Haverda v. Hays Cty., 723 F.3d 586, 598 (5th
Cir. 2013). Once an officer invokes the defense, the
plaintiff must rebut it by establishing (1) that the
officer violated a federal statutory or constitutional
right and (2) that the unlawfulness of the conduct was
“clearly established at the time.” District of Columbia
v. Wesby, 138 S. Ct. 577, 589 (2018) (quoting Reichle v.
Howards, 566 U.S. 658, 664 (2012)).
To identify whether the law was clearly established
when the officers acted, “we must be able to point to
controlling authority—or a robust consensus of
persuasive authority—that defines the contours of the
right in question with a high degree of particularity.”
Morgan v. Swanson, 659 F.3d 359, 371–72 (5th Cir.
2011) (en banc) (internal quotation marks and citations
omitted). Though “a case directly on point” is not
required, “existing precedent must have placed the
statutory or constitutional question beyond debate.”
Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011).4 “This

4

See also Pasco ex rel. Pasco v. Knoblauch, 566 F.3d 572, 578–79
(5th Cir. 2009) (quoting Pierce v. Smith, 117 F.3d 866, 882 (5th Cir.
1997)) (“[P]re-existing law must dictate, that is, truly compel (not
just suggest or allow or raise a question about), the conclusion for

App. 9
demanding standard protects ‘all but the plainly
incompetent or those who knowingly violate the law.’”
Wesby, 138 S. Ct. at 589 (quoting Malley v. Briggs, 475
U.S. 335, 341 (1986)). In sum, QI “represents the norm,
and courts should deny a defendant immunity only in
rare circumstances.” Romero v. City of Grapevine, 888
F.3d 170, 176 (5th Cir. 2018) (internal quotation marks
and citations omitted). “It is the plaintiff’s burden to
find a case in his favor that does not define the law at
a high level of generality.” Vann v. City of Southaven,
884 F.3d 307, 310 (5th Cir. 2018) (per curiam) (internal
quotation marks and citation omitted).
Rich alleges that the officers violated Dupuis-Mays’s
Fourth Amendment rights through unlawful detention,
excessive force, and false reporting. The officers assert
QI on each claim.
A.
The officers insist that they are entitled to QI on
Rich’s claim that the officers violated Dupuis-Mays’s
constitutional rights by unlawfully detaining and
transporting him to Green Oaks. “The probable cause
standard applies in the context of a seizure of the
mentally ill.” Cantrell, 666 F.3d at 923 n.8. An officer
has probable cause to detain if the two requirements
for emergency detention under Texas law are satisfied:
“(1) [T]he officer has reason to believe and does believe
that a person is mentally ill and because of that illness
there is a substantial risk of serious harm to the person
or to others unless the person is immediately
every like-situated, reasonable government agent that what
defendant is doing violates federal law in the circumstances.”).

App. 10
restrained; and (2) believes that there is not sufficient
time to obtain a warrant before taking the person into
custody.” Id. at 923 (citing TEX. HEALTH & SAFETY
CODE ANN. § 573.001).
The parties do not dispute that Dupuis-Mays is
“mentally ill” under Texas law.5 They focus, instead, on
whether he posed a substantial risk of serious harm to
himself or others. That sort of substantial risk “may be
demonstrated by[ ] (1) the person’s behavior; or
(2) evidence of severe emotional distress and
deterioration in the person’s mental condition to the
extent that the person cannot remain at liberty.” TEX.
HEALTH & SAFETY CODE ANN. § 573.001(b). An officer
may base his belief that the person meets the statutory
criteria for apprehension either on “a representation of
a credible person[,] or . . . on the basis of the conduct of
the apprehended person or the circumstances under
which the apprehended person is found.” Id.
§ 573.001(c)(1)–(2). An officer who detains a person
under those provisions “shall immediately” take him to
“the nearest appropriate inpatient mental health
facility” or an otherwise designated mental health or
emergency facility. Id. § 573.001(d)(1)(A)–(B).
The video and audio evidence supports that the
officers relied on the representations of credible

5

A person is mentally ill under Texas law if he has “an illness,
disease, or condition, other than epilepsy, dementia, substance
abuse, or intellectual disability, that[ ] (A) substantially impairs
[his] thought, perception of reality, emotional process, or judgment;
or (B) grossly impairs behavior as demonstrated by recent
disturbed behavior.”
TEX. HEALTH & SAFETY CODE ANN.
§ 571.003(14).

App. 11
persons to believe that Dupuis-Mays met the statutory
criteria for apprehension. According to the group home
staff, Dupuis-Mays’s behavior posed a substantial risk
of harm to others. His caretakers stated that he was in
a “psychotic episode,” “verbally and physically
aggressive towards staff.” He had threatened staff
members and children, disturbed property in the
backyard, soiled and refused to clean himself, and
ignored the instructions of the staff, who were so
frightened that they refused to transport him. Further,
a treating psychiatrist—as well as staff at the Green
Oaks hospital—had recommended that Dupuis-Mays
be taken to the hospital for psychiatric evaluation.
Dupuis-Mays’s conduct and the circumstances in
which the officers found him also allowed them
reasonably to conclude that Dupuis-Mays was
experiencing “severe emotional distress and
deterioration in [his] mental condition to the extent
that [he could not] remain at liberty.” Id.
§ 573.001(b)(2). The officers found him covered in feces,
refusing to bathe, and ignoring instructions. DupuisMays, moreover, responded to Palko’s exhortation to
clean himself, because the feces covering him could
make him “feel bad,” by saying that he wanted to feel
bad.6 Additionally, Dupuis-Mays had attempted to run
away from the group home several times that evening.
Rich suggests that the officers did not have
sufficient evidence to detain Dupuis-Mays lawfully

6

Palko asked Dupuis-Mays, “You don’t want to feel bad, right?” “I
do,” Dupuis-Mays replied. Palko rejoined, “Why is that?” And
Dupuis-Mays responded, “I just do.”

App. 12
because this court’s cases concerning lawful detention
of a mentally ill person under Texas law all involve a
suicide threat.7 That is so, but nothing in those cases
suggests that a suicide risk is a prerequisite for
detention under Texas law. Indeed, holding so would
nullify the statute’s allowance for detention if the
mentally ill person poses a substantial risk of harm to
others.8
Based on the representations of credible persons
and their own observations, the officers reasonably
concluded that Dupuis-Mays was mentally ill and

7

See Cantrell, 666 F.3d at 923 (concluding that officers had
probable cause to detain woman making suicidal statements);
Sullivan v. Cty. of Hunt, 106 F. App’x 215, 218 (5th Cir. 2004)
(probable cause to detain where psychiatrist indicated that the
person “was a suicide risk”); Martinez v. Smith¸ 1999 WL 1095667,
at *1–2 (5th Cir. Nov. 4, 1999) (unpublished) (probable cause to
detain where individual had told an acquaintance that she was
suicidal and avoided contact with officers by shutting the door on
and running from them).
8

Texas caselaw confirms that a mentally ill person may be
lawfully detained without a warrant even where he is not
threatening suicide. See, e.g., In re M.R., No. 02-15-00221-CV, 2015
LEXIS 11297, at *2 (Tex. App.—Fort Worth Nov. 3, 2015, no pet.)
(mem. op.) (discussing the lawful detention and transport,
pursuant to Texas law, of a mentally ill patient who “evidenced a
substantial risk of serious harm to himself or others” in that he
was disoriented, hallucinating, grunting, not bathing, soiling
himself, and not taking his medication); In re J.M., No. 02-1400398-CV, 2015 LEXIS 1420, at *2 (Tex. App.—Fort Worth Feb.
12, 2015, no pet.) (mem. op.) (describing the lawful detention under
Texas law of a mentally ill person who was physically aggressive
toward her parents, behaving recklessly, and experiencing
psychosis and paranoia).

App. 13
posed a substantial risk of serious harm to himself or
others.9 They accordingly had a lawful basis to detain
him under the Texas Health and Safety Code and
complied with the Code’s requirements by taking him
directly to Green Oaks. The officers did not violate
Dupuis-Mays’s constitutional rights and are entitled to
QI on the unlawful-detention claim.
Even assuming the officers violated Dupuis-Mays’s
constitutional rights, Rich has failed to demonstrate
that clearly established law put the officers on notice
that their conduct was illegal. In fact, established law
in this circuit suggests that the officers were acting
legally by relying on the representations of credible
persons that Dupuis-Mays met the statutory
requirements for apprehension.10 Rich points to no case
9

The magistrate judge’s report and recommendation, fully adopted
by the district court, found the officers’ detention of Dupuis-Mays
unlawful in part based on MPD’s internal investigation of the
events, in which Agan suggested that the officers had no lawful
basis to detain Dupuis-Mays. Whatever Agan concluded, “probable
cause exists where the facts and circumstances within the officer’s
knowledge at the time of the seizure are sufficient for a reasonable
person to conclude that an individual is mentally ill and poses a
substantial risk of serious harm.” Cantrell, 666 F.3d at 923. The
video and audio indicate that there was enough evidence to believe
the statutory criteria for detention had been satisfied.
10

See Sullivan, 106 F. App’x at 221 (holding that officers who took
a man into custody to commit him for a mental screening at the
behest of their supervisor, who was relying on the statements of a
psychiatrist, lawfully detained the man under Texas law); see also
Martinez¸ 1999 WL 1095667, at *2 (holding that officers “had
probable cause to take [plaintiff] into protective custody” “[b]ased
on the Texas statute, the information from a third party, and their
own observations”).

App. 14
even suggesting that staff at a group home for disabled
persons, who have been told by a hospital and a
psychiatrist that a patient should be taken to the
hospital, are not credible persons under the Texas
Health and Safety Code. The district court erred in
denying QI on the claim of unlawful detention.
B.
The officers also assert QI on Rich’s claim that the
officers violated Dupuis-Mays’s Fourth Amendment
rights by using excessive force to restrain him in the
triage room. We may “decid[e] which of the two prongs
of the [QI] analysis should be addressed first in light of
the circumstances in the particular case at hand.”
Pearson v. Callahan, 555 U.S. 223, 236 (2009). For the
excessive force claim, we start and end with the second
prong: “whether the right at issue was clearly
established at the time of [the officers’] alleged
misconduct.” Id. at 232.
Rich has not demonstrated that the officers violated
clearly established law by moving Dupuis-Mays—who
was increasingly aggravated, repeatedly spitting at the
officers, and failing to comply with instructions to
stop—to the floor, even though he collided with a
cabinet on the way down. The cases Rich cites on
appeal do not implicate the situation Palko and
Hudgens faced and certainly do not put it “beyond
debate,” al-Kidd, 563 U.S. at 741, that the officers’
actions violated Dupuis-Mays’s rights. Instead, those
decisions concern the use of deadly force,11 repeatedly
11

Cole v. Carson, 905 F.3d 334, 343 (5th Cir. 2018), vacated for
reh’g en banc, 915 F.3d 378 (5th Cir. 2019).

App. 15
striking an arrestee,12 tackling an arrestee and
pummeling him with the officers’ “knees and fists,”13
slamming a subdued arrestee into a car window with
enough force to break two teeth,14 tackling a moving
suspect,15 and catching a fleeing suspect and then
repeatedly tasing him and slamming him on the
ground.16
Rich has failed to identify precedent clearly
establishing that the officers’ conduct violated DupuisMays’s constitutional rights on the excessive force
claim. The officers are entitled to QI.

12

Brown v. Lynch, 524 F. App’x 69, 72–73 (5th Cir 2013)
(unpublished).
13

Trammell v. Fruge, 868 F.3d 332, 342 (5th Cir. 2017).

14

Bush v. Strain, 513 F.3d 492, 496 (5th Cir. 2008).

15

Goodson v. City of Corpus Christi, 202 F.3d 730, 733–34 (5th Cir.
2000).
16

Anderson v. McCaleb, 480 F. App’x 768, 769 (5th Cir. 2012) (per
curiam). The district court found that Brady v. Louisiana, No. 923904, 1993 U.S. App. LEXIS 39564 (5th Cir. 1993) (unpublished
but precedential), “along with several other cases in this Circuit,
provide clearly established law that lesser levels of force are
excessive against restrained, nonthreatening persons.” Rich cites
those “other cases,” and we have already found them inapposite.
Brady involved a prison guard’s hitting a restrained inmate, id. at
*2, and does not provide the kind of precedent “that defines the
contours of the right in question with a high degree of
particularity,” Morgan, 659 F.3d at 372.

App. 16
C.
The officers contend that they deserve QI on Rich’s
claim that the officers violated Dupuis-Mays’s
constitutional rights by preparing false police reports
“to support the unlawful arrest.” Neither the district
court nor Rich has identified which of Dupuis-Mays’s
constitutional rights was violated. The court explained
only that “these reporting falsities obstructed the
investigation regarding the incident and continue to
serve as a potential basis for the justification of the
alleged unlawful detention and use of excessive force,”
and accordingly, “are proper matters for a jury to
review.”17
Rich’s theory appears to be that Hudgens’s
inaccurate post-incident report was designed to provide
probable cause to support a warrantless detention. But
Rich fails to identify a single case suggesting that an
individual has a right to be free from inaccuracies in an
after-the-fact police report or that an inaccurate report
serves as a sort of continuing constitutional violation,
as the district court suggested. The only case from this
circuit that the magistrate judge cited is to the
contrary.18 Consequently, Rich has not shown a

17

The magistrate judge similarly found “these reporting falsities
to be consequential to Plaintiff’s unlawful detention and excessive
force claims, and that a jury could find the false statements were
intentionally made by Defendant Officers.”
18

See Smith v. Patri, 99 F. App’x 497, 498 (5th Cir. 2004) (per
curiam) (“[T]here is no right to a completely accurate police
report.”). Other circuits have also recognized that false or
inaccurate police reports do not pose a constitutional violation. See,

App. 17
violation of a clearly established constitutional right,
and the officers are entitled to QI.
The order denying QI is REVERSED, and a
judgment of dismissal with prejudice is RENDERED.

e.g., Jarrett v. Twp. of Bensalem, 312 F. App’x 505, 507 (3d Cir.
2009) (“[T]he mere existence of an allegedly incorrect police report
fails to implicate constitutional rights.”).

App. 18

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
CASE NO. 4:16CV870
Judge Mazzant/Judge Johnson
[Filed March 13, 2018]
__________________________________________
JERI LYNN RICH, AS REPRESENTATIVE, )
FOR GAVRILA COVACI DUPUIS-MAYS, )
AN INCAPACITATED PERSON,
)
Plaintiff,
)
)
V.
)
)
MICHAEL PALKO, KEITH HUDGENS,
)
and THE CITY OF MCKINNEY,
)
Defendants.
)
_________________________________________ )
MEMORANDUM ADOPTING REPORT AND
RECOMMENDATION OF UNITED STATES
MAGISTRATE JUDGE
Came on for consideration the report of the United
States Magistrate Judge in this action, this matter
having been heretofore referred to the United States
Magistrate Judge pursuant to 28 U.S.C. § 636. On
January 8, 2018, the report of the Magistrate Judge
was entered containing proposed findings of fact and

App. 19
recommendations (the “Report”) (see Dkt. #70) that
Defendants Michael Palko (“Palko” or “Defendant
Palko”) and Keith Hudgens’s (“Hudgens” or “Defendant
Hudgens”) (collectively, “Defendant Officers”) Motion
for Summary Judgment on Qualified Immunity (Dkt.
#60) be DENIED.
I. PROCEDURAL BACKGROUND
On January 12, 2018, Defendant Officers filed
objections to the Report (see Dkt. #71). On January 17,
2018, Defendant Officers filed a Motion for Hearing on
Defendant Officers’ objections (see Dkt. #73). Upon
order of the Court, Plaintiff filed a response to
Defendant Officers’ objections (see Dkt. #75). Defendant
Officers filed a supplemental reply to Plaintiff’s
response (see Dkt. #76). The Court has made a de novo
review of the objections, Plaintiff’s response, and
Defendant Officers’ supplemental reply, and is of the
opinion that the findings and conclusions of the
Magistrate Judge are correct and the objections are
without merit as to the ultimate findings of the
Magistrate Judge.1 The Court hereby adopts the
findings and conclusions of the Magistrate Judge as the
findings and conclusions of the Court.

1

The Court also considered Defendant Officers’ Motion for Hearing
on their objections (Dkt. #73).

App. 20
II. DISCUSSION
A. GENERAL OBJECTIONS TO THE REPORT
1. Unlawful Detention
Defendant Officers first object to the Magistrate
Judge’s finding that there is a genuine issue of
material fact as to whether Defendant Officers
understood Gavrila Covaci Dupuis-Mays (“DupuisMays”) was a danger to himself or others as required
for detention under Texas law. See Dkt. #71 at 2-3. In
support of this objection, Defendant Officers contend
the Report “disregards other evidence” demonstrating
there is no genuine issue of material fact. As Plaintiff
notes, however, Defendant Officers have never
provided sworn testimony in support of this argument
or their Motion at all. Additionally, Defendant Officers
cannot dispute that the record includes conflicting
internal reports from Sergeant Randy Agan regarding
whether the seizure of Dupuis-Mays was lawful.
Moreover, the Magistrate Judge correctly noted that
the audio and video evidence, internal investigation
documentation, and conflicting internal reports all
provide evidence that there is a genuine issue of
material fact on this issue. See Dkt. #70 at 13-14. For
these reasons, the Court finds no error in the
Magistrate Judge’s finding that there is a genuine
issue of material fact as to whether the seizure of
Dupuis-Mays’s was unlawful, and thus, Defendant
Officers’ objection is overruled.
Defendant Officers next object that “the right [to be
free from detention under the circumstances] was not
clearly established,” arguing that based on Dupuis-

App. 21
Mays’s psychiatric history, Defendant Officers
reasonably concluded he was a danger to himself
and/or others. See Dkt. #71 at 3-4. First, the Court
notes that Defendant Officers have not made this
argument prior to their objections to the Report. The
Fifth Circuit has held that issues raised for the first
time in objections to the report of a magistrate judge
are not properly before the Court. See Finley v.
Johnson, 243 F.3d 215, 218 n. 3 (5th Cir. 2001) (citing
United States v. Armstrong, 951 F.2d 626, 630 (5th Cir.
1992)). Even considering Defendant Officers’ argument,
the Court finds two fatal flaws: first, Defendant
Officers, pursuant to the record before the Court, did
not have Dupuis-Mays’s “psychiatric history” at any
time during the incident. The record contains DupuisMays’s Medical Records from Medical City Dallas
Hospital (Dkt. #65-1 at 8-10); however, such records
were obtained during the subsequent investigation
after the incident. Second, Defendant Officers have
admitted that Dupuis-Mays was not violent when they
arrived at the scene and throughout the extended
period of time prior to being detained. See Dkt. #71 at
3-4. Furthermore, Defendant Officers cite no case law
for the proposition that, based on a person’s behavioral
and psychiatric history, police officers may lawfully
detain a non-violent person.
As the Magistrate Judge noted, case law discussing
emergency detention clearly establishes there must be
a substantial risk of serious harm for a person to be
lawfully detained under the provisions of the Texas
Health and Safety Code. See Dkt. #70 at 14. Defendant
Officers’ contentions as to their decision to detain
Dupuis-Mays based on his personal history is a

App. 22
question of fact best left for a jury. Thus, the Court
finds no error in the Magistrate Judge’s conclusion, and
this objection is likewise overruled.
2. Excessive Force
Defendant Officers next object to the Magistrate
Judge’s finding that Defendant Officers’ use of force
against Dupuis-Mays was objectively unreasonable and
met the standard of excessive force. See Dkt. #71 at 4-5.
In support, Defendant Officers offer a new and
different interpretation of the video evidence before the
Court, now arguing that “Dupuis-Mays’s own
movement and momentum result[ed] in his
accidentally striking the filing cabinet.” See id. at 5.
The Court again notes that Defendant Officers have
not made this argument prior to their objections, and
thus, the issue is not properly before the Court. See
Finley, 243 F.3d at 218 n. 3 (citing Armstrong, 951 F.2d
at 630). Even considering Defendant Officers’
argument, however, the Magistrate Judge found a jury
could find Defendant Officers’ videotaped use of force
was unreasonable, especially when viewed in
conjunction with Sergeant Agan’s report. See Dkt. # 70
at 17-18. Although Defendant Officers now offer a
different description of the events seen on the video,
this does not change the objective video evidence: a
seated, handcuffed, and disabled person was forcibly
brought to the ground by two police officers and
suffered a serious laceration to the head. Accordingly,
the Court finds no error in the Magistrate Judge’s
conclusion, and this objection is likewise overruled.
Defendant Officers also object to the Magistrate
Judge’s finding that the right to be free from excessive

App. 23
force was clearly established. See Dkt. #71 at 5-6.
Defendant Officers first rely on three cases in making
this objection: one from Pennsylvania, one from
Missouri, and one from Arkansas. See id. at 5. The
Court does not find any of these cases persuasive in
this matter.
Defendant Officers next argue that the Magistrate
Judge’s reliance on Fifth Circuit case law was
misplaced because the force described therein was
different than the force used in the instant matter. See
id. at 5-6. Defendant Officers appear to have
misinterpreted the basis for the Magistrate Judge’s
reliance on Brady v. Louisiana, 1993 WL 277008 (5th
Cir. 1993). As noted in the Report, Brady, along with
several other cases in this Circuit, provide clearly
established law that lesser levels of force are excessive
against restrained, non-threatening persons. Indeed,
the Magistrate Judge found that the “clearly excessive”
force threshold is less in situations where, as in this
case, the person is restrained and not physically
threatening. See Dkt. #70 at 18. Thus, the Court finds
no error in the Magistrate Judge’s conclusion, and this
objection is likewise overruled.
3. False Reporting
Defendant Officers next object to the Magistrate
Judge’s finding that their reporting falsities were
consequential to Dupuis-Mays’s unlawful detention and
excessive force claims. See Dkt. # 71 at 6-7. Defendant
Officers rely on the timing of the submitted reports to
argue they could not have possibly contributed to any
deprivation of Dupuis-Mays’s constitutional rights. See
id. Namely, Defendant Officers state they submitted

App. 24
their reports “long after Dupuis-Mays was tak[en] into
custody. . . .” See id. at 7. As the Magistrate Judge
stated, however, these reporting falsities obstructed the
investigation regarding the incident and continue to
serve as a potential basis for the justification of the
alleged unlawful detention and use of excessive force.
See Dkt. #71 at 20-21. For this reason, they are proper
matters for a jury to review. Thus, the Court finds no
error in the Magistrate Judge’s conclusion, and this
objection is likewise overruled.
B. OBJECTIONS TO DISCOVERY ORDERS
Defendant Officers object that the Court improperly
limited qualified immunity discovery in previous orders
(Dkts. #53, #59). Defendant Officers argue that
information from the discovery requests they proposed
would have supported the reasonableness of both the
detention and the use of force. See Dkt. #71 at 8.
Additionally, Defendant Officers rely on case law
stating that “limited discovery may be undertaken by
both parties, tailored to the issue of qualified
immunity.” Geter v. Fortenberry, 882 F.2d 167, 170 (5th
Cir. 1989).
First, the Court finds that Defendant Officers’
argument regarding the value of the information from
the proposed discovery is entirely speculative. The
voluminous record before the Court provided adequate
basis for the Magistrate Judge’s findings. Moreover,
Defendant Officers incorrectly argue the Court’s orders
regarding discovery were improperly narrow. As noted
in Geter, a Court has discretion regarding the scope of
discovery when addressing the issue of qualified
immunity. See Geter, 882 F.2d at 170. Although

App. 25
Defendant Officers may not agree with the Magistrate
Judge’s denial of certain discovery requests (like the
request for Plaintiff’s deposition), such decisions were
made within the Court’s sound discretion. Thus, the
Court finds no error in the Magistrate Judge’s
discovery orders (Dkts. #53, #59), and Defendant
Officers’ objection is overruled.
C. REQUEST FOR ORAL HEARING
Defendant Officers also submitted a Motion for Oral
Hearing on their objections (the “Motion for Oral
Hearing”) (Dkt. #73). Upon consideration, the Court
DENIES Defendant Officers’ Motion for Oral Hearing
(Dkt. #73).
III. CONCLUSION
Based on the foregoing, Defendant Officers’ Motion
for Summary Judgment on Qualified Immunity
(Dkt. #60) is DENIED.
Further, Defendant Officers’ Motion for Oral
Hearing (Dkt. #73) is DENIED.
IT IS SO ORDERED.
SIGNED this 13th day of March, 2018.
/s/ Amos L. Mazzant
AMOS L. MAZZANT
UNITED STATES DISTRICT JUDGE

App. 26

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
Civil Action No.: 4:16-cv-00870
[Filed January 8, 2018]
__________________________________________
JERI LYNN RICH, AS REPRESENTATIVE, )
FOR GAVRILA COVACI DUPUIS-MAYS, )
AN INCAPACITATED PERSON,
)
Plaintiff,
)
)
v.
)
)
MICHAEL PALKO, KEITH HUDGENS,
)
and THE CITY OF MCKINNEY,
)
Defendants.
)
_________________________________________ )
REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
Pending before the Court is Defendants Michael
Palko (“Palko” or “Defendant Palko”) and Keith
Hudgens’s (“Hudgens” or “Defendant Hudgens”)
(collectively, “Defendant Officers”) Motion for Summary
Judgment on Qualified Immunity (the “Motion”) (Dkt.
60). Upon review of the Motion, associated briefing, and
limited discovery materials (see Dkts. 60, 60-2, 65, 65-1,

App. 27
66), the Court recommends the Motion (Dkt. 60) be
DENIED.
I. BACKGROUND
Plaintiff Jeri Lynn Rich (“Plaintiff”) brings this suit
as representative and registered guardian of her
adopted son, Gavrila Covaci Dupuis-Mays (“DupuisMays”). See Dkts. 1 at ¶ 7; 65-1 at 11. Dupuis-Mays
suffered a brain injury as an infant, has been
diagnosed with cerebral palsy and mental retardation,
and has been declared an incapacitated person by the
State of Texas. See Dkts. 1 at ¶ 7; 60-2 at 62-73. At the
time of the underlying events, Dupuis-Mays lived in a
group home in McKinney, Texas (the “Group Home”),
which is staffed and operated by D&S Community
Services (“D&S”). See Dkts. 1 at ¶ 8; 60 at 5. A copy of
the D&S “In-Service” report documents various
physical and mental conditions of which D&S staff
were to be aware regarding Dupuis-Mays, including
(among others): limited utilization of his left hand, bipolar disorder, depression, traumatic brain injury,
ADHD, epilepsy, GERD, legal blindness (no peripheral
vision), and use of disposable briefs. See Dkt. 60-2 at
60-61.
On July 11, 2015, Dupuis-Mays’s caseworker,
Rhonda Holley (“Caseworker Holley”), called the
McKinney Police Department and requested that police
officers be sent to the Group Home to transport
Dupuis-Mays to Green Oaks Hospital (“Green Oaks”),
as he was in need of inpatient care. See Dkts. 1 at ¶ 9;
60 at 5. Defendant Officers submitted an audio
recording of the July 11, 2015, call, wherein Holley
stated Dupuis-Mays was “in a psychotic phase, where

App. 28
he is verbally and physically aggressive towards staff”
and “covered in feces and refusing to bathe.” See
Defendant Officers’ Appendix, Disk 1, file: 911 Call
7.11.15- 15-006403 MENTAL OPC 2512
TIMBERBROOK TRL 07 11 2015 NON EMERG CALL
0202.1 When the 9-1-1 operator inquired further about
Dupuis-Mays’s physical aggression, Holley replied that
Dupuis-Mays had not hit anybody. See id. Holley ended
the call by stating, “I called Green Oaks, and they told
me to call y’all.” See id.
Shortly after the call, Defendant Officers arrived at
the Group Home. See Dkt. 1 at ¶ 10. Defendant Officers
submitted an audio and video recording (the “Hudgens
Dashcam Video”) of their arrival to the Group Home,
their interaction with Dupuis-Mays and D&S staff, and
the subsequent transport of Dupuis-Mays to Green
Oaks. See Defendant Officers’ Appendix, Disk 2, file:
KeithHudgens_201507110212_1315_53578230. The
Hudgens Dashcam Video shows that, when Defendant
Officers arrived at the Group Home, they had a brief
conversation with one of Dupuis-Mays’s caretakers. See
id. at 0:58-1:53. The caretaker (whose name is unclear
in the audio) stated that Dupuis-Mays was becoming
increasingly psychotic and reported that Green Oaks
told the Group Home staff to bring him in for care. See
1

The Court notes that Defendant Officers submitted several audio
and video files pursuant to Local Rule CV-5(a)(6) and CV-56(d). See
Dkt. 62. Although courts view evidence in the light most favorable
to the nonmoving party on motion for summary judgment, they
give greater weight, even at the summary judgment stage, to the
facts evident from video or audio recordings regarding the incident
in question. See Griggs v. Brewer, 841 F.3d 308, 312 (5th Cir. 2016)
(citing Carnaby v. City of Hous., 636 F.3d 183, 187 (5th Cir. 2011)).

App. 29
id. The caretaker continued on to say that DupuisMays was covered in feces and that she and other staff
did not feel safe transporting him to Green Oaks and
that they had their children with them. See id. Next,
Defendant Officers approached Dupuis-Mays and had
an extended interaction with him, talking with him
about what was happening that night and urging him
to shower and change clothes. See id. at 1:54-9:35.
During this interaction, Dupuis-Mays remained calm
and eventually agreed to shower and put on clean
clothes. See id.
While Dupuis-Mays showered, personnel at the
Group Home spoke with Defendant Officers about the
events leading up to their arrival. See id. at 9:36-30:18.
Specifically, Caseworker Holley stated that DupuisMays had defecated on himself, removed his clothes,
and put them on the porch of the Group Home. See id.
She also stated that although Dupuis-Mays had not
been physically aggressive that particular night, he
had been physically aggressive in the past and was
generally being verbally aggressive and non-compliant
with the Group Home’s rules before Defendant Officers
arrived. See id. The record before the Court shows that
McKinney Police officers were also called to the Group
Home two times earlier that same night in response to
calls about Dupuis-Mays’s non-compliant behavior. See
Dkts. 60-2 at 42, 45; 65-1 at 23-24.
Once Dupuis-Mays finished showering, he walked
back to Defendant Officers on his own volition. See
Defendant Officers’ Appendix, Disk 2, file:
KeithHudgens_201507110212_1315_ 53578230, at
30:31. Defendant Officers then allowed Dupuis-Mays to

App. 30
smoke a cigarette outside, where they laughed and
talked casually for approximately ten minutes. See id.
at 30:31-38:50. After the conversation, and nearly forty
minutes after arriving at the Group Home, Defendant
Officers told Dupuis-Mays he would be going for a ride
in the police car. See id. at 38:00-38:50. Defendant
Officers handcuffed Dupuis-Mays and told him he
would need to remain handcuffed while riding in the
police car. See id. Before entering the police car,
Dupuis-Mays asked Defendant Officers if they could
remove the handcuffs. Defendant Officers told him they
could not. See id., at 38:45-38:55. Dupuis-Mays also
repeatedly asked if he was going to jail, and Defendant
Officers assured him he was not. See id., at 30:3138:55.
As Defendant Officers transported Dupuis-Mays
from the Group Home to Green Oaks, they talked
casually with Dupuis-Mays, asked him about his
favorite types of music, and listened to the radio. See
id. at 39:00-1:10:50. Defendant Officers arrived at
Green Oaks with Dupuis-Mays without any issue about
thirty minutes after leaving the group home. See id. at
1:10:50.
Defendant Officers guided Dupuis-Mays into the
waiting room about twenty minutes after arriving at
the Green Oaks parking lot. See Defendant Officers’
Appendix, Disk 1, file: PES Parking 71115, at 18:08.
Dupuis-Mays remained in handcuffs and walked on his
own, following Defendant Officers as they entered the
Green Oaks waiting room. See id. Once inside the
Green Oaks waiting room, Dupuis-Mays remained
handcuffed and was placed in a chair near the door to

App. 31
the triage room. See id., file: Blacked Out Edit. After
about fifteen minutes, Dupuis-Mays stood up from the
chair and began speaking to Defendant Officers. See id.
at 17:49. The video shows that after a few minutes of
this interaction, Defendant Officers pushed DupuisMays back down to the chair to restrain him. See id. at
18:59. About ten seconds after being placed in the
chair, Dupuis-Mays appeared to spit towards
Defendant Officers. See id. at 19:08. Defendant Officers
immediately turned away from the spitting then turned
back towards Dupuis-Mays, grabbed his head, and
pushed it down between his legs. See id. at 19:10.
Defendant Officers held Dupuis-Mays in this position
for nearly five minutes. See id. at 19:10-24:06. A few
minutes later, a nurse came out from the triage room
to bring Dupuis-Mays in for further examination. See
id. at 25:50. For this entire period, Dupuis-Mays
remained handcuffed. See id.
Inside the Green Oaks triage room, after being in
handcuffs for nearly one-and-a-half hours, DupuisMays grew increasingly agitated and began making
angry expressions, such as “I hate cops” and “I hope the
cops die.” See Defendant Officers’ Appendix, Disk 1,
file: Body Mocrophone Audio – Hudgens, Keith_
20150711_1010_e83229 aac18745ad8ee0db6d01c9e46d,
at 9:28-9:40. During this time, the triage nurse was
attempting to calm Dupuis-Mays down and assess his
medical needs; eventually, the triage nurse left the
room after Dupuis-Mays responded that he would not
calm down. See id. at 9:43. When Dupuis-Mays was left
in the triage room alone with Defendant Officers, he
remained irritated and spit either in the direction of or

App. 32
on Defendant Palko.2 Immediately after this, the video
shows that Defendant Palko stepped towards DupuisMays, grabbed him by the head, and took him towards
the ground with both hands; Defendant Hudgens also
moved towards Dupuis-Mays and assisted in taking
him to the ground. See Defendant Officers’ Appendix,
Disk 1, file: PES AR 2-2 71115, at 3:45-4:00. On the
way to the ground, Dupuis-Mays’s head was pushed
into a metal file cabinet, causing his head to bleed; the
video shows blood stains on the wall and on DupuisMays’s face and clothing. See id., file: PES AR 2-1
71115, at 3:58-4:40. After the incident, Defendant
Officers falsely told Green Oaks staff that DupuisMays “bumped his head while they were not in the
room.” See Dkt. 60-2 at 10; see also Dkt. 1 at ¶ 23.
Plaintiff submitted a photo of the resulting injury to
Dupuis-Mays; the photo shows that Dupuis-Mays
suffered a large laceration to his head which required
numerous staples. See Dkt. 65-1 at 35.
Soon after the incident, Green Oaks staff contacted
Officer Terry Qualls of the McKinney Police
Department (“McKinney PD”) because they “wished to
report some concerns involving two McKinney Police
Officers over the weekend.” See Dkt. 60-2 at 10. In
response, an internal investigation was initiated by the
McKinney PD Internal Affairs Division and Sergeant
Randy Agan (“Sergeant Agan”) was assigned to conduct
the investigation. See Dkt. 60-2 at 6. On July 13, 2015,

2

The video is unclear as to whether Dupuis-Mays actually spit on
Defendant Palko rather than at him; Plaintiff claims he spit “in
the direction of” Defendant Palko, whereas Defendant Officers
claim Plaintiff spit “on” Defendant Palko.

App. 33
Green Oaks staff reiterated their concerns to Sergeant
Agan, stating “that a review of the video showed more
than what was reported [by Defendant Officers] and
requested that [he] come view the video.” See id.
According to Sergeant Agan’s report, that same day, he
met with the Green Oaks management team to review
“the video of the incident that gave them concern.” See
id.
Based on a review of the evidence, Sergeant Agan’s
“Administrative Investigation” report contains a
synopsis and analysis of the July 11, 2015, incident
involving Defendant Officers and Dupuis-Mays. See
Dkt. 60-2 at 10-18. Sergeant Agan’s report stated that,
after reviewing the audio and video of the incident, he
had numerous concerns with the incident as reported
by Defendant Officers. See id. at 10-13. Specifically,
Sergeant Agan stated that “[i]t is not clear other than
violating house rules why Officers Hudgens and Palko
took Mays into custody” and “[t]he report does not
describe how Mays was a danger to himself or others
and if not taken into custody how he posed such a
threat.” See id. at 12. Further, Sergeant Agan stated he
“did not see anything in the video to substantiate [the
claim that Dupuis-Mays was being aggressive towards
Defendant Officers in the Green Oaks triage room] as
Mays was sitting cuffed with his hands behind his back
and appeared to be talking.” See id. at 13.
On November 11, 2016, Plaintiff filed suit against
Defendant Officers and McKinney for violations of 42
U.S.C. § 1983 pursuant to the Fourth, Eighth, and
Fourteenth Amendment of the United States
Constitution. See Dkt. 1 at ¶¶ 46-47. On April 11, 2017,

App. 34
the Court deferred in part and granted in part
Defendant Officers’ Motion to Dismiss for Failure to
State a Claim (Dkt. 11). See Dkt. 34; see also Dkt. 43.
Specifically, the Court dismissed Plaintiff’s claim under
the Eighth Amendment and deferred the remaining
claims for disposition only after narrowly tailored
discovery. See Dkt. 34 at 17.
II. LEGAL STANDARD
A. SUMMARY JUDGMENT STANDARD
The purpose of summary judgment is to isolate and
dispose of factually unsupported claims or defenses.
See Celotex Corp. v. Catrett, 477 U.S. 317, 323-24
(1986). Under Rule 56(c) of the Federal Rules of Civil
Procedure, summary judgment is proper “if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a
judgment as a matter of law.” Rule 56(c) mandates the
entry of summary judgment, after adequate time for
discovery and upon motion, against a party who fails to
make a showing sufficient to establish the existence of
an element essential to that party’s case, and on which
that party will bear the burden of proof at trial. See
Fed. R. Civ. P. 56(c); Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986).
The mere existence of some alleged factual dispute
between the parties will not defeat summary judgment;
the requirement is that there be no genuine issue of
material fact. See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 247-48 (1986). A fact is “material” if a dispute

App. 35
over it might affect the outcome of a suit under
governing law; factual disputes that are “irrelevant or
unnecessary” do not affect the summary judgment
determination. See id. at 248. An issue is “genuine” if
the evidence is such that a reasonable jury could return
a verdict for the nonmoving party. See id.
B. SECTION 1983 AND QUALIFIED IMMUNITY
STANDARD
Claims under 42 U.S.C. § 1983 may be brought
against persons in their individual capacity or official
capacity, or against a governmental entity. See
Goodman v. Harris Cty., 571 F.3d 388, 395 (5th Cir.
2009). Section 1983 provides that “every person who,
under color of any statute, ordinance, regulation,
custom, or usage, of any State . . . subjects, or causes to
be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress.” 42 U.S.C. § 1983.
Section 1983 does not create substantive rights, rather
it is simply a procedural vehicle that provides a remedy
for violation of the rights that it designates. See
Harrington v. Harris, 118 F.3d 359, 365 (5th Cir. 1997).
Therefore, “an underlying constitutional or statutory
violation is a predicate to liability under § 1983.” Id.
The doctrine of qualified immunity provides that
government officials performing discretionary functions
generally are shielded from liability for civil damages
to the extent that their conduct does not violate clearly
established statutory or constitutional rights of which

App. 36
a reasonable person would have known. See Estate of
Davis ex rel. McCully v. City of N. Richland Hills, 406
F.3d 375, 380 (5th Cir. 2005); see also Hudspeth v. City
of Shreveport, 2006 WL 3747446, at *5 (W.D. La. 2006),
aff’d, 270 F. App’x 332 (5th Cir. 2008). Qualified
immunity provides the right not to stand trial or
confront other burdens of litigation, “conditioned on the
resolution of the essentially legal question whether the
conduct of which the plaintiff complains violated
clearly established law.” Davis, 406 F.3d at 380
(internal citation omitted). Qualified immunity is more
than a mere defense to liability. See id. Rather, the
doctrine provides immunity from suit. See id. The Fifth
Circuit has reasoned that before a district court
adjudicates the merits of a plaintiff’s claims, the
plaintiff must overcome the bar of qualified immunity.
See id. Once the issue of qualified immunity is raised,
a plaintiff has the burden of rebutting the defense by
demonstrating that the government official’s allegedly
wrongful conduct violated clearly established law. See
id. The government official is not required to
demonstrate that he did not violate clearly established
federal rights because Fifth Circuit precedent places
such burden upon the plaintiff. See id. “Qualified
immunity provides ample protection to all but the
plainly incompetent or those who knowingly violate the
law.” Id. The qualified immunity shield is broad and
protects actions—even mistakes—that are reasonable
under the existing law. See Fraire v. City of Arlington,
957 F.2d 1268 (5th Cir. 1992).
The Court conducts a two-prong inquiry in order to
determine whether qualified immunity applies. In
order to defeat qualified immunity on a motion for

App. 37
summary judgment, a plaintiff must sufficiently allege
that: (1) a constitutional right would have been violated
on the facts shown; and (2) “the right was clearly
established” at the time of the violation. See Fontenot
v. Cormier, 56 F.3d 669, 673 (5th Cir. 1995); Siegert v.
Gilley, 500 U.S. 226 (1991). The Fifth Circuit has
stated that “[i]f reasonable public officials could differ
on the lawfulness of the defendant’s actions, the
defendant is entitled to qualified immunity.” Fraire,
957 F.2d at 1273.
In Saucier v. Katz, the Supreme Court instructed
that the inquiries for constitutional violations and
qualified immunity remain distinct. Johnson v. Waters,
317 F. Supp. 2d 726, 731 (E.D. Tex. 2004), dismissed,
120 F. App’x 555 (5th Cir. 2005) (citing Saucier v. Katz,
533 U.S. 194, 201 (2001)). The Court opined that “it is
sometimes difficult for an officer to determine how the
relevant legal doctrine, here excessive force, will apply
to the factual situation the officer confronts. Id. An
officer might correctly perceive all of the relevant facts
but have a mistaken understanding as to whether a
particular amount of force is legal in those
circumstances.” Id. (quoting Saucier, 533 U.S. at 205).
In that case, qualified immunity operates as a shield to
protect officers if, in fact, a constitutional violation has
been committed, but the officer’s mistaken belief was
reasonable in light of established law. Id. (citing
Saucier, 533 U.S. at 205-06). The defendant’s acts are
held to be objectively reasonable unless all reasonable
officials in the defendant’s circumstances would have
then known that the defendant’s conduct violated the
plaintiff’s constitutional right. See Anderson v.
Creighton, 483 U.S. 635, 641 (1987); Cozzo v.

App. 38
Tangipahoa Parish Council, 279 F.3d 273 (5th Cir.
2002) (citing Thompson v. Upshur Cnty., 245 F.3d 447,
457 (5th Cir. 2001)).
When reviewing a summary judgment motion on
immunity, courts view the facts in the light most
favorable to the non-moving party and draw all
reasonable inferences in his favor. See Griggs v.
Brewer, 841 F.3d 308, 312 (5th Cir. 2016) (citing Deville
v. Marcantel, 567 F.3d 156, 163-64 (5th Cir. 2007)).
Although courts view evidence in the light most
favorable to the nonmoving party, they give greater
weight, even at the summary judgment stage, to those
facts evident from video recordings taken at the scene.
See Griggs, 841 F.3d at 312 (citing Carnaby v. City of
Hous., 636 F.3d 183, 187 (5th Cir. 2011)).
III. EVIDENCE PRESENTED
Defendant Officers have offered the following
summary judgment evidence in support of the Motion:
1. Dkt. 60-2 at 3-5: Declaration of Erik Johnson
and Exhibit “A;”
2. Dkt. 60-2 at 6-9: Declaration of Sergeant Randy
Agan;
3. Dkt. 60-2 at 10-44: McKinney PD Internal
Affairs Investigation 15-00640;
4. Dkt. 60-2 at 45-58: McKinney PD Internal
Affairs Investigation 15-00640A; and
5. Two (2) compact disks containing video and
audio files from July 11, 2015.

App. 39
Plaintiff has offered the following summary
judgment evidence in opposition to the Motion:
1. Dkt. 65-1 at 3-7: Defendants’ Supplemental
Response to Interrogatory No. 2;
2. Dkt. 65-1 at 8-10: Medical Records from Medical
City Dallas Hospital;
3. Dkt. 65-1 at 11: Letters of Guardianship;
4. Dkt. 65-1 at 12-34: Excerpts from Defendants’
MSJ Appendix; and
5. Dkt. 65-1 at 35-37: Photos of Dupuis-Mays
Injuries.
IV. ANALYSIS
Plaintiff’s claims against Defendant Officers fall
into three categories: (1) unlawful detention of DupuisMays; (2) excessive force used on Dupuis-Mays; and
(3) violation of constitutional rights regarding false
reporting of the incident.
A. PLAINTIFF’S UNLAWFUL DETENTION
CLAIMS AGAINST DEFENDANT OFFICERS
1. Plaintiff Sufficiently Alleged Unlawful
Detention on the Facts Shown
The Fifth Circuit has held that police officers are
entitled to qualified immunity when they act lawfully
in performing their duties under the Texas Health and
Safety Code. See Cantrell v. City of Murphy, 666 F.3d
911, 923 (5th Cir. 2012). The Texas Health and Safety
Code states that a police officer may, without a
warrant, place a person in custody if: (1) the officer has

App. 40
reason to believe and does believe that (A) the person
in question is a person with mental illness; and
(B) because of that illness, there is a substantial risk of
serious harm to the person or to others unless the
person is immediately restrained; and (2) believes there
is not sufficient time to obtain a warrant before taking
the person into custody. See Tex. Health & Safety Code
§ 573.001(a); Cantrell, 666 F.3d at 922-23. A
“substantial risk of serious harm to the person or
others” may be shown by either: (1) the person’s
behavior; or (2) evidence of severe emotional distress
and deterioration in the person’s mental condition to
the extent that the person cannot remain at liberty. See
Tex. Health & Safety Code § 573.001(b). The police
officer may form the belief that the person meets the
criteria for apprehension either: (1) from a
representation from a credible person; or (2) on the
basis of the conduct of the apprehended person or the
circumstances under which the apprehended person is
found. See id. § 573.001(c). A police officer that takes a
person into custody must immediately transport that
person to the nearest appropriate inpatient mental
health facility, or one deemed suitable by the local
mental health authority. See § 573.001(d).
Plaintiff alleges there was no probable cause to
detain Dupuis-Mays as outlined in the Texas Health
and Safety Code. See Dkt. 65 at 16-19. Defendant
Officers conversely contend they are entitled to
qualified immunity because they acted lawfully under
the Texas Health and Safety Code. See Dkt. 60 at 1113.

App. 41
In support of her position, Plaintiff relies on
Sergeant Agan’s report (Dkt. 60-2 at 10-18) along with
the video and audio evidence submitted by Defendant
Officers. See Dkt. 65 at 16-19. Plaintiff claims that a
jury could conclude there was no danger to DupuisMays or others because he bathed and complied with
Defendant Officers’ requests. See id. at 18. Plaintiff
also claims that the long delay and extended discussion
between Defendant Officers and Dupuis-Mays negates
Defendant Officers’ claim that there was a need for
“immediate detention.” See id. Additionally, Plaintiff
points to Sergeant Agan’s report, wherein Sergeant
Agan stated there was no evident physical aggression
in the video when Dupuis-Mays was handcuffed in the
triage room. See id. at 17; see also Dkt. 60-2 at 13.
Defendant Officers argue that the 9-1-1 call to the
McKinney PD stating that Dupuis-Mays was “in a
psychotic phase” and “verbally and physically
aggressive towards staff” provided initial evidence that
Defendant Officers had probable cause to detain
Dupuis-Mays. See Dkt. 60 at 11. Defendant Officers
further argue that Caseworker Holley’s
communications to Defendant Officers that she was
concerned for the safety of her children if she were to
transport Dupuis-Mays herself to Green Oaks also
evidenced that Dupuis-Mays was a danger to himself
and/or others. See Dkt. 60 at 12.
At the Motion to Dismiss stage of the litigation, the
Court found that Plaintiff sufficiently pleaded a claim
for unlawful detention partially based on Sergeant
Agan’s investigation report. See Dkt. 34 at 8. In his
report, Sergeant Agan stated that he could not see how

App. 42
Dupuis-Mays was a danger to himself or others and
how, if not taken to Green Oaks, he would pose such a
threat. See Dkt. 60-2 at 10-18. Since then, Defendant
Officers have presented a Declaration of Randy Agan
(the “Agan Declaration”) (Dkt. 60-2 at 6-9) for the
record. In the Agan Declaration, Sergeant Agan
essentially retracted his statements from the
investigation report by stating, “upon review of all the
relevant evidence, it was clear to me that probable
cause did exist for Hudgens and Palko to detain and
transport Dupuis-Mays for mental health care.”
Dkt. 60-2 at 7. While the Court recognizes the
reasoning presented for Sergeant Agan’s modification,
there remains other evidence sufficient to overcome the
qualified immunity defense at the motion for summary
judgment stage. Indeed, as stated in the Court’s
Memorandum Adopting the undersigned’s Report and
Recommendations, “while Sergeant Agan’s report is
relevant, it is not dispositive.” Dkt. 43 at 6. Similarly
here, Sergeant Agan’s Declaration, while relevant, is
not dispositive. Based on the audio and video evidence
and the internal investigation documentation,
including Sergeant Agan’s investigation report and
subsequent Declaration, there is a genuine issue of
material fact as to whether Dupuis-Mays was
unlawfully detained on July 11, 2015.
2. The Right was Clearly Established at the
Time of the Violation
In the few cases where courts have found probable
cause for detaining a person under the Texas Health
and Safety Code, the detainments have been based on
suicidal statements causing the officer to believe the

App. 43
detainee was mentally ill and posed a substantial risk
of serious harm. See Cantrell, 666 F.3d at 923;
Martinez v. Smith, 1999 WL 1095667, at *1 (5th Cir.
Nov. 4, 1999); Lawson v. Marion Cnty., Tex., 2014 WL
5761121, at *6 (E.D. Tex. Nov. 5, 2014). Defendant
Officers contend there is not clearly established Texas
jurisprudence that emergency detentions are reserved
for only suicidal persons based on a decision in Nieman
v. Helton, 2017 U.S. Dist. LEXIS 50686 (N.D. Tex. Feb.
6, 2017). In Nieman, the police officers who determined
a person should be detained under the Texas Health
and Safety Code observed that the person had impaired
judgment, physical control, and memory, and was
disoriented with a strong odor of alcohol. See id. at *15*17. While Defendant Officers correctly note that
Nieman did not involve suicidal statements, it also did
not address the issue of “mental illness.” As previously
mentioned, Tex. Health & Safety Code § 573.001
requires an officer to believe that a person is mentally
ill in addition to posing a substantial risk of serious
harm to themselves or others; the Nieman case does
not include information regarding whether the person
detained was mentally ill and therefore, is not
instructive. Under instructive law, Defendant Officers
were on notice that detaining Dupuis-Mays was
objectively unreasonable.
Namely, evidence in the record shows that,
beginning with the 9-1-1 call, Defendant Officers never
had evidence that Dupuis-Mays was being physically
aggressive or dangerous towards anyone on the night
of the incident. See Defendant Officers’ Appendix, Disk
1, file: 911 Call 7.11.15- 15-006403 MENTAL OPC 2512
TIMBERBROOK TRL 07 11 2015 NON EMERG CALL

App. 44
0202. The 9-1-1 caller assured the dispatch that
Dupuis-Mays had not hit anyone; instead, DupuisMays was disobeying house rules. See id. When
Defendant Officers arrived on the scene, Dupuis-Mays
remained calm and complied with their requests. See
Defendant Officers’ Appendix, Disk 2, file:
KeithHudgens_201507110212_1315_53578230.
Moreover, Dupuis-Mays never became physically
aggressive with Defendant Officers for the nearly fortyfive minutes they spent with him while attempting to
get him cleaned and compliant with house rules. See id.
Separately, when Defendant Officers asked the
Group Home workers why they could not take DupuisMays to Green Oaks themselves, they responded they
had brought their children with them to work and they
were afraid. See Dkt. 60 at 12. Defendant Officers
attempt to use these statements as evidence that
Dupuis-Mays was dangerous. Despite these
statements, however, the Court finds that based on the
objective evidence that Dupuis-Mays was never
physically aggressive to anyone on the date of the
incident, including, but not limited to, Defendant
Officers, and the multiple, extended interactions with
Dupuis-Mays and Defendant Officers, wherein DupuisMays was calm and compliant, there is a fact issue as
to whether Defendant Officers were on notice that
detaining Dupuis-Mays, when he was not being
aggressive, remained calm, and complied with
Defendant Officers’ requests, was objectively
unreasonable. Accordingly, this issue is not appropriate
for summary judgment and should be decided by a trier
of fact.

App. 45
B. PLAINTIFF’S EXCESSIVE FORCE CLAIM
1. Plaintiff Sufficiently Alleged Excessive
Force on the Facts Shown
To prevail on a Fourth Amendment excessive force
claim, Plaintiff must show that Dupuis-Mays
(1) suffered an injury, which (2) “resulted directly and
only from the use of force that was clearly excessive to
the need,” and (3) “the force used was objectively
unreasonable.” See Cass v. City of Abilene, 814 F.3d
721, 731 (5th Cir. 2016) (quoting Goodson v. City of
Corpus Christi, 202 F.3d 730, 740 (5th Cir. 2000)). The
reasonableness of a particular use of force must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of
hindsight. Graham v. Connor, 490 U.S. 386, 396 (1989).
The analysis must also embody allowance for the fact
that police officers are often forced to make split-second
judgments—in circumstances that are tense, uncertain,
and rapidly evolving—about the amount of force that is
necessary in a particular situation. See id. at 396-97.
Ultimately, the question is whether Defendant
Officers’ actions are objectively reasonable in light of
the facts and circumstances confronting them, without
regard to their underlying intent or motivation. See id.
at 397. Factors to consider are: (1) the severity of the
crime at issue; (2) whether the suspect poses an
immediate threat to the safety of the officers or others;
and (3) whether he is actively resisting arrest or
attempting to evade arrest by flight. Id. at 396.
Excessive force claims are thus necessarily fact
intensive and depend on the facts and circumstances of

App. 46
each particular case. See Poole v. City of Shreveport,
691 F.3d 624, 628 (5th Cir. 2012).
As to element (1)—whether the individual suffered
an injury—it is undisputed that Dupuis-Mays suffered
a serious injury. See Defendant Officers’ Appendix,
Disk 1, file: PES AR 2-1 71115, at 3:45-4:40. The video
clearly shows that Dupuis-Mays was slammed to the
ground and was bleeding from his head. See id. To
support Plaintiff’s allegation that Dupuis-Mays
required staples to repair the laceration, Plaintiff offers
multiple photos with staples located in the same place
the video shows Dupuis-Mays struck his head. See Dkt.
65-1 at 35-36. Plaintiff has sufficiently pleaded the first
element.
As to element (2)—whether the injury resulted
directly and only from the use of force that was clearly
excessive to the need—the Court again refers to the
undisputed video evidence. See Defendant Officers’
Appendix, Disk 1, file: PES AR 2-1 71115, at 3:45-4:40.
The video shows Defendant Officers grab Dupuis-Mays
by the head while he is seated in handcuffs in a triage
room, shove him to the ground, and slam his head into
a metal file cabinet, resulting in Dupuis-Mays
lacerating his head and bleeding on the wall, his face,
and his clothes. See id. There is no evidence that
Dupuis-Mays’s injury occurred from anything other
than the force used by Defendant Officers. Moreover,
there is no evidence that Dupuis-Mays was offering any
physical resistance at the time Defendant Officers
decided to take him to the ground; instead, DupuisMays was seated and handcuffed. Accordingly, Plaintiff
has sufficiently pleaded the second element.

App. 47
Finally, as to element (3)—whether the Defendant
Officers’ actions were objectively reasonable—the Court
finds that Plaintiff has sufficiently demonstrated facts
that Defendant Officers’ actions were not reasonable
under the circumstances. The video from inside the
Green Oaks triage room shows that Dupuis-Mays was
still handcuffed3 and sitting across the room4 from
Defendant Officers; Defendant Officers have not
claimed, nor does the video show, there was any
immediate threat of safety to the officers or others. See
Defendant Officers’ Appendix, Disk 1, file: PES AR 2-1
71115. Additionally, the video shows that Dupuis-Mays
was not resisting arrest or attempting to evade arrest.
See id. Furthermore, Sergeant Agan’s own
investigation concluded, “Detective Palko used poor
tactics and did not follow McKinney Police Department
procedures in dealing with Dupuis-Mays’ spitting.” See
Dkt. 60-2 at 8. While a hand-cuffed Dupuis-May’s
spitting may have been unpleasant and unsanitary, it
remains far from an action that was threatening or
potentially harmful to Defendant Officers, and a jury
could find it was unreasonable to use the level of force
applied here by Defendant Officers. The video evidence
combined with the conclusions from Sergeant Agan’s

3

At this point, Dupuis-Mays had been handcuffed for nearly an
hour-and-a-half.
4

The video from inside the triage room shows that Defendant
Officers were standing about three (3) to seven (7) feet from the
corner of the room where Dupuis-Mays was seated and handcuffed.
see Defendant Officers’ Appendix, Disk 1, file: PES AR 2-2 71115,
at 3:45.

App. 48
report demonstrate that Plaintiff has sufficiently
pleaded the third element.
2. The Right was Clearly Established at the
Time of the Violation
The Fourth Amendment creates a “right to be free
from excessive force during a seizure.” Trammell v.
Fruge, 2016 U.S. Dist. LEXIS 84223 (5th Cir. 2017); see
also Darden v. City of Fort Worth, 2016 U.S. Dist.
LEXIS 105926 (5th Cir. 2017). Defendant Officers
argue that several courts have held that a police officer
may use force to restrain an individual when spitting
is involved. See Dkt. 60 at 14. Plaintiff argues there is
clearly established law showing the amount of force
used by Defendant Officers in response to DupuisMays’s spitting was excessive. See Dkt. 65 at 22. The
Court agrees with Plaintiff. Specifically, a directly
analogous incident was described in Brady v.
Louisiana, 1993 WL 277008 (5th Cir. 1993). In Brady,
a prisoner spat at a correctional officer and the officer
responded by hitting the prisoner in the face. Id. at *1.
The Fifth Circuit concluded it was unnecessary for the
officer to hit the prisoner because it was intended to
stop the prisoner from spitting, and there was no
threat to be reasonably perceived by the officers since
the prisoner was already restrained. See id. at *2.
Therefore, Brady, along with several other cases in the
Fifth Circuit, constitute clearly established law to show
that the amount of force Defendant Officers used in
response to Dupuis-Mays’s spitting was excessive, in
light of the fact that Dupuis-Mays was handcuffed and
no reasonable officer would find Dupuis-Mays posed a
threat. See id.; Anderson v. McCaleb, 480 Fed. App’x

App. 49
768, 773 (5th Cir. 2012) (finding clearly established law
put the officers on notice that they could not beat the
plaintiff once he stopped resisting arrest and that they
could not slam the plaintiff to the ground after he was
handcuffed); Bush v. Strain, 513 F.3d 492, 502 (5th Cir.
2008) (finding officers were on notice, under clearly
established law, that slamming a plaintiff’s face into a
vehicle when she was not resisting arrest or trying to
flee violated her Fourth Amendment rights); Sanchez
v. Hialeah Police Dept., 357 Fed. App’x 229, 232 (11th
Cir. 2009) (consistently allowing an excessive force
claim to go forward where an arrestee was handcuffed,
posed no risk of danger to the officer, and was not
resisting arrest). The Court thus finds that Defendant
Officers have not met their summary judgment burden
regarding qualified immunity on Plaintiff’s excessive
force claim, and this claim should proceed to trial.
C. PLAINTIFF’S FALSE REPORTING CLAIM
Defendant Officers lastly argue there is no liability
under 42 U.S.C. § 1983 “solely for the filing of an
inaccurate or false report and nothing more.” See
Dkt. 60 at 16. In support, Defendant Officers cite to a
Fifth Circuit case stating, “there is no right to a
completely accurate police report.” Smith v. Patri, 99
Fed. App’x. 497, 498 (5th Cir. 2004). The Court,
however, will not consider Smith as binding precedent
for several reasons. First, in Smith, the Fifth Circuit
expressly stated that “[p]ursuant to 5TH CIR. R. 475"
the opinion “should not be published and is not
precedent. . . .” See id. at 497. Second, upon further
review, the case does not stand for the proposition cited
to by Defendant Officers. In Smith, the allegedly

App. 50
inaccurate report involved a minor detail that was
ultimately inconsequential to the ultimate question in
the case. See id. at 499. Third, the jailer that submitted
the allegedly false report eventually testified at trial
that he could not recall the full details as he had
reported, i.e., the inaccuracy was not intentional.
Finally, Smith involved a dissimilar set of underlying
facts which are not analogous to this case. Accordingly,
the Court will not consider Smith as binding precedent
regarding the false reporting claim at issue.
Instead, the Court considers instructive, Seibert v.
Cannaday, wherein that court found that a police
officer “did not have an official duty to create and relay
lies about Plaintiff.” 2005 WL 646048, at *8 (N.D. Tex.
Mar. 18, 2005). In Seibert, the defendant police officer
falsely communicated that the plaintiff had previously
attempted suicide to the Irving police department. See
id. The court determined that this false communication
“taint[ed] the decision to arrest Plaintiff.” See id. The
court ultimately held the defendant police officer was
not entitled to qualified immunity regarding the claims
under § 1983. See id.
Regarding Defendant Officers’ arguments, the
Court first notes they mistakenly narrow Plaintiff’s
false communications allegations to the “filing of a false
report and nothing more.” See Dkt. 60 at 16. In fact,
Plaintiff alleges that Defendant Officers falsely
reported the events of the entire night both to Green
Oaks and to the McKinney PD. See Dkt. 65 at 24; see
also Dkt. 1 at 4-7. Specifically, per Sergeant Agan’s
investigative report and contrary to the undisputed
video evidence, Defendant Officers told Green Oaks

App. 51
staff that Dupuis-Mays “bumped his head while they
were not in the room.” See Dkt. 60-2 at 10; see also Dkt.
1 at ¶ 23. Additionally, Defendant Hudgens provided
an inaccurate written report, which falsely stated that
D&S staff told Defendant Officers that Dupuis-Mays
“struck the in house staff several times when they
attempted to enforce the house rules” and “[w]hile
enroute to Green Oaks, Mays became increasingly
agitated. . . .” See Dkt. 60-2 at 50. The Court finds
these reporting falsities to be consequential to
Plaintiff’s unlawful detention and excessive force
claims, and that a jury could find the false statements
were intentionally made by Defendant Officers.5
As in Seibert, Defendant Officers did not have any
official duty to create and relay such lies about DupuisMays. See 2005 WL 646048, at *8. Through their false
statements to Green Oaks staff and inaccurate written
responses during Sergeant Agan’s investigation,
Defendant Officers did just that. While Defendant
Officers contend that these falsities were merely
“regrettable,” in actuality, the falsities obstructed the
investigation regarding the July 11, 2015, incident and
improperly contributed to the alleged unlawful
detention of and use of excessive force on, DupuisMays. Accordingly, Plaintiff is entitled to present this
issue to a jury, along with her other Section 1983
claims.

5

Defendant Officers did not offer affidavits addressing these
statements.

App. 52
V. CONCLUSION AND RECOMMENDATION
For the foregoing reasons, the Court recommends
that Defendants Michael Palko and Keith Hudgens’s
Motion for Summary Judgment on Qualified Immunity
(Dkt. 60) be DENIED, and Plaintiff’s unlawful
detention, excessive force, and false reporting claims
should proceed to trial.
Within fourteen (14) days after service of the
magistrate judge’s report, any party may serve and file
written objections to the findings and recommendations
of the magistrate judge. 28 U.S.C. § 636(b)(1)(C). The
parties are directed to Local Rule CV-72(c) for page
limitations on objections.
A party is entitled to a de novo review by the district
court of the findings and conclusions contained in this
report only if specific objections are made, and failure
to timely file written objections to any proposed
findings, conclusions, and recommendations contained
in this report shall bar an aggrieved party from
appellate review of those factual findings and legal
conclusions accepted by the district court, except on
grounds of plain error, provided that the party has
been served with notice that such consequences will
result from a failure to object. Id.; Thomas v. Arn, 474
U.S. 140 (1985); Douglass v. United Servs. Auto Ass’n,
79 F.3d 1415, 1417 (5th Cir. 1996) (en banc),
superseded by statute on other grounds, 28 U.S.C.
§ 636(b)(1) (extending the time to file objections from
ten to fourteen days).

App. 53
SIGNED this 8th day of January, 2018.
/s/ Kimberly C. Priest Johnson
KIMBERLY C. PRIEST JOHNSON
UNITED STATES MAGISTRATE JUDGE

App. 54

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-40415
[Filed May 7, 2019]
________________________________________________
JERI LYNN RICH, as representative for
)
Gavrila Covaci Dupuis-Mays, an
)
incapacitated person,
)
Plaintiff !Appellee,
)
)
v.
)
)
MICHAEL PALKO; KEITH DUANE HUDGENS, )
Defendants !Appellants.
)
_______________________________________________ )
Appeal from the United States District Court
for the Eastern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion 4/3/19 , 5 Cir., __, __ F.3d ___ )
Before KING, SMITH, and WILLETT, Circuit Judges.
PER CURIAM:
(T )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the

App. 55
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.
( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.
ENTERED FOR THE COURT:
/s/
UNITED STATES CIRCUIT JUDGE

